REPORT NO. D-2008-TAD-005




               POLICY AND OVERSIGHT

           Alleged Flawed Procurement of
     New Orleans Temporary Outflow Canal Pumps




                                       May 14, 2008
    Additional Copies

    To obtain additional copies of this report, visit the Web site of the Department of
    Defense Inspector General at http://www.dodig.mil/Inspections/TechReports.html or
    contact the Office of the Inspector General, Technical Assessment Directorate at
    (703) 604-8952 (DSN 664-8952) or fax (703) 604-9808.

    Suggestions for Future Assessments

    To suggest ideas for or to request future assessments, contact the Office of the
    Inspector General, Technical Assessment Directorate at (703) 604-8952 (DSN 664-
    8952) or fax (703) 604-9808. Ideas and requests can also be mailed to:

                            Technical Assessment Directorate
                         Department of Defense Inspector General
                           400 Army Navy Drive (Room 846)
                               Arlington, VA 22202-4704




Acronyms

ASME                American Society of Mechanical Engineers
ASTM                American Society for Testing and Materials
CO                  Contracting Officer
COR                 Contracting Officer’s Representative
DOD                 Department of Defense
ERDC                Engineer Research and Development Center
FAR                 Federal Acquisition Regulation
GAO                 Government Accountability Office
HI                  Hydraulic Institute
HPU                 Hydraulic Power Unit
IG                  Inspector General
ITR                 Independent Team Report
MFR                 Memorandum for Record
MIPR                Military Interagency Procurement Request
NOAA                National Oceanic and Atmospheric Administration
OIG                 Office of the Inspector General
OSC                 Office of Special Counsel
QA                  Quality Assurance
QARs                Quality Assurance Reports
QC                  Quality Control
RFP                 Request for Proposal
USACE               United States Army Corps of Engineers
                                 INSPECTOR GENERAL

                                DEPARTMENT OF DEFENSE

                                 400 ARMY NAVY DRIVE

                            ARLINGTON, VIRGINIA 22202-4704





The Honorable Scott J. Bloch
Special Counsel, U.S. Office of Special Counsel
1730 M. Street, N.W.
Suite 300
Washington, D.C. 20036-4505

Re: OSC File No. DI-07-2724

Dear Mr. Bloch:

       This is in response to your September 21, 2007, letter to the Secretary of Defense
regarding "serious allegations which cast doubt on the integrity of costly pumping
equipment installed in three main structures by USACE and its ability to protect New
Orleans from further flooding," pursuant to 5 U.S.c. § 1213.

        We have reviewed the allegations, prior reviews, and project documentation and
interviewed the complainant and U. S. Army Corps of Engineers' project personnel. Our
review did not find reasonable grounds to believe that there were criminal violations or
deficiencies in the pump acquisition that constituted a danger to public health or safety.

       Our report of investigation is enclosed. By memorandum from the Secretary of
Defense dated February 9, 1998 (copy enclosed), the DoD Inspector General has been
delegated authority to respond to requests for investigations under 5 U.S.c. § 1213.

       If you have any additional questions regarding this matter please contact
Mr. John R. Crane at (703) 604-8234.

                                             Sincerely,




Enclosures: As stated

cc:	 Chief of Engineers, U.S. Army Corps of Engineers
     Inspector General, Department of the Army
           Department of Defense Office of the Inspector General

Report No. D-2008-TAD-005                                                 May 14, 2008

                      Alleged Flawed Procurement of
                New Orleans Temporary Outfall Canal Pumps


                      Introduction and Background

On September 21, 2007, the U.S. Office of Special Counsel (OSC) referred
allegations to the Secretary of Defense concerning the United States Army Corps
of Engineers (USACE) installation of pumping equipment in three main structures
to protect New Orleans from further flooding. The OSC is authorized by 5 U.S.C.
§ 1213(a) and (b) to receive disclosures of information from Federal employees
alleging violations of law, rule, or regulation, gross mismanagement, gross waste
of funds, and abuse of authority, or a substantial and specific danger to public
health or safety. When the Special Counsel finds that there is a substantial
likelihood that one of these conditions exists, he is required to advise the
appropriate agency head, and the agency head is required to conduct an
investigation of the allegations and prepare a report, pursuant to 5 U.S.C.
§ 1213(c) and (g).

In this case, the Special Counsel concluded that there was a substantial likelihood
that the information provided by a Federal employee disclosed allegations
covered by 5 U.S.C. § 1213, and referred the matter to the Secretary of Defense
for investigation. The Special Counsel summarized the whistleblower allegations
as follows:

       (1) the costly pumping equipment at three “outfall gated canal closure
       structures,” which is part of the flood protection design to protect New
       Orleans, was inherently flawed due to poor pumping and hydraulic systems
       designs;

       (2) pumping equipment that had previously malfunctioned under favorable
       contractor testing conditions, and subsequently shown to be defective, was
       knowingly installed by USACE employees and . . . [the contractor]
       personnel;                                                             and

       (3) USACE employees and . . . [the contractor] personnel circumvented
       contract requirements related to contract modification and notifications at
       the expense of public safety and proper contract oversight.

Prior to Hurricane Katrina, the New Orleans Sewerage and Water Board pumped
rainwater from the city into three drainage canals at 17th Street, London Avenue,
and Orleans Avenue. These three canals flowed into Lake Pontchartrain
unrestricted and while they were sufficient to prevent some, but not all, flooding
from rainfall events, they were vulnerable to storm surges during a hurricane.
The floodwalls lining both sides of the canals were designed to protect residents
                                         1
from surges in Lake Pontchartrain driven by storms up to the “Standard Project
Hurricane,” roughly equivalent to a fast-moving category 3 hurricane. During
Hurricane Katrina in August 2005, however, several breaches occurred in the
floodwalls. This allowed a significant amount of water from Lake Pontchartrain
to enter the city of New Orleans.

The United States Army Corps of Engineers (USACE) took action to restore New
Orleans’ flood protection to a pre-Katrina level by June 1, 2006, the beginning of
the next hurricane season. The USACE considered strengthening the drainage
canal floodwalls but decided to postpone this effort due to cost and time
constraints. Instead, USACE decided to install three interim closure structures at
the points where the canals meet Lake Pontchartrain. These closure structures,
which remain open during normal weather periods, would be closed during major
storm events to prevent a Lake Pontchartrain storm surge from entering the
canals, breaching the floodwalls, and overflowing into the city. However, the
closures would also prevent rainwater in the canals from flowing into the lake.
Because the gates remained closed during a storm surge, large capacity pumping
systems were needed to pump water out of the canals and into the lake.

The National Oceanic and Atmospheric Administration (NOAA) created storm
event rainfall models for 10, 50, and 100-year storm events for the New Orleans
canal system. The storm model used historical data to determine the average of
the worst storms that have occurred every 10, 50, and 100 years. The statistical
data was then used to predict an event that has a 1% probability of being equaled
or exceeded in any year.

The Interim Closure Structure‘s Temporary Pumping System was designed to
pump water for a 10-year rainfall event; not a 50-year or 100-year rainfall event
like Katrina. A permanent pump system is planned to be completed by 2012 and
will be designed to handle a 100-year storm event.

The USACE initiated the procurement of 34 large capacity hydraulic pumping
systems to provide pumping capacity by June 1, 2006. Six additional pumps were
procured to supplement the pumping capacity at the 17th Street Canal, the largest
canal. The USACE stated that additional analysis in mid 2006, determined that a
significant additional pumping capacity would be required at the 17th and London
Avenue Canals to meet the 10-year rainfall event. Therefore contracts were let in
2007 for 19 direct-drive pumps to meet the 10-year rainfall event.

Each pumping unit consists of two major mechanical components; the hydraulic
power unit (HPU), which is located on an elevated equipment platform, and the
water pump, located in the canal on the protected side of the closure structures.
The two components are connected by hydraulic lines. The water discharge
piping runs from the water pump around the closure structure and then discharges
into Lake Pontchartrain. The following terms are used in this report to distinguish
components of the New Orleans Outflow Canal Pumps:

                                     2
                 Hydraulic Pumping System
                       1. Pumping Unit
                              a. Hydraulic Power Unit (HPU)
                              b. Water Pump
                       2. Hydraulic Lines
                       3. Water Discharge Piping

        Each pumping unit underwent testing at the factory and in the field. Problems
        were continuously encountered and corrected throughout the acquisition
        process. Final contractual acceptance testing was completed on September 15,
        2007.

                                      Conduct of the Investigation

        We began the investigation on October 26, 2007, based on information provided
        by the Office of Special Counsel, which included the “Whistleblower Disclosure
        Affidavit” dated August 13, 2007; a Memorandum for Record (MFR) dated
        May 3, 2006, entitled “Defective Pumping Equipment,” a “Declaration of … [the
        complainant],” dated October 13, 2006, and a “Declaration of … [the
        complainant],”dated April 23, 2007.

        Based on the information described above, as well as a subsequent interview with
        the complainant, we categorized the specific allegations into the following five
        areas in order to cover the full range of concerns: Design, Testing, Installation,
        Operational Capabilities, and Contract Issues. Specific allegations in each
        category were then addressed during our fieldwork.

        The interview with the complainant included the USACE, Los Angeles District
        counsel, who participated as an observer at the request of the complainant.
        During our interview, the complainant provided shop inspection reports, the
        contractor Quality Control (QC) reports, the complainant’s testing documentation
        detailing test results of most pumps, and a MFR dated May 29, 2006, entitled
        “Implementation of New Corrective Measures to Correct Pumping Equipment
        Deficiencies.”

        We also interviewed personnel serving with the New Orleans District USACE,
        including the Project Manager, the Assistant Project Manager, the Contracting
        Officer (CO), and the Resident Engineer / Contracting Officer’s Representative
        (COR). They provided contract documentation including the contractor proposal
        and the 33 contract modifications, New Orleans Military Interagency Procurement
        Request (MIPR) to the Jacksonville district for QC services,1 USACE and
        Hydraulic Institute (HI) standards, storm event studies, operational test
        procedures, test logs, USACE’s Engineer Research and Development Center

1
 The USACE New Orleans office issued a MIPR to the Jacksonville district office to obtain quality control
services at the contractor’s production facility in Deerfield, Florida.

                                                   3
(ERDC) capacity test reports, USACE’s Quality Assurance Reports (QARs) at the
installation sites, and pump maintenance logs. Meetings were held with USACE
Headquarters and Government Accountability Office (GAO) Headquarters.

As part of our work, we examined other studies and evaluations of matters
concerning post-Katrina flood control in New Orleans. Some of these studies
specifically addressed the allegations made by complainant and will be referenced
in this report when appropriate. Those studies included the following:

•   U.S. Army Audit Agency, “Contracts of the Hurricane Protection System in
    New Orleans,” (A-2006-0198-FFD) August 22, 2006

•   U.S. Army Corps of Engineers, “Final Report MVN [Mississippi Valley, New
    Orleans] Outfall Canal Pumps,” Independent Team Report (ITR), May 11,
    2007

•   Government Accountability Office, “U.S. Army Corps of Engineers’
    Procurement of Pumping Systems for the New Orleans Drainage Canals,”
    (GAO-07-908R) May 23, 2007

•   U.S. Army Corps of Engineers, “MVN Outfall Canal Pump Report,”
    Memorandum for Record (MFR), June 4, 2007

•   U.S. Army Audit Agency, “Contracts to Restore and Enhance the Southern
    Louisiana Hurricane Protection System,” (A-2007-0216-FFD) September 11,
    2007

•   Government Accountability Office, “Army Corps of Engineers Known
    Performance Issues with New Orleans Drainage Canal Pumps Have Been
    Addressed, but Guidance on Future Contracts Is Needed,” (GAO-08-288)
    December 31, 2007




                                    4
                          Summary of Evidence and Analysis

      As discussed above, we categorized allegations concerning the Interim Closure
      Structure, Pumping Station Project, into five issue areas: Design, Testing,
      Installation, Operational Capabilities, and Contract Issues. We assigned numbers
      to the allegations for ease of reference.

Design Allegations

      Allegation #1: Flawed design allowed air to enter into Denison hydraulic pumps
      on the HPUs causing damage and subsequent failure of the pumps.

      Facts: The contract states:

              The work under this section shall consist of providing all pumping
              equipment including the hydraulically driven pumps, diesel drive units,
              and all piping, appurtenances, mechanical and electrical system as
              shown on the drawings and as specified herein.

      It goes on to state:
              The supplier of the pumping equipment mentioned above shall assume
              responsibility for the proper functioning of the hydraulic motors,
              pumps, and hydraulic drive units as a complete system

      The clause concerning the Contractor’s obligation under Warranty
      of Supplies of a Noncomplex Nature, states:

              All supplies furnished under this contract will be free from defects in
              material and workmanship and will conform with all requirements of
              this contract...

      The USACE stated that the Denison hydraulic pump design used in this
      acquisition was a standard design. The December 31, 2007, GAO report stated:

              ...according to the Lake Borgne Levee District official, this pump has
              been successfully used for about 20 years without having to prime the
              pumps prior to start-up.

      The design required a prescribed start-up procedure for the HPU. The operating
      procedure required the operator to start-up the HPU at a slow speed and gradually
      increase it to the normal operating speed. Doing so would properly dissipate air
      that entered the hydraulic pipe whenever the suction pipe was opened for repairs
      and maintenance. If operators did not follow prescribed procedures for the initial
      start-up of the hydraulic power unit (i.e., conducted a rapid run-up), trapped air
      would cause a “dry run” and tear up the hydraulic pump.




                                                5
The problem was addressed in the December 31, 2007, GAO report as follows:

       Corps officials from the New Orleans District emphasized to us that the
       redesign was requested to more adequately meet their needs, not because of
       concerns about the pumping systems operating as intended. ...[the
       contractor] subsequently agreed to modify the design of the hydraulic intake
       line at the request of the Corps. According to Corps officials, by the end of
       July 2007 and at its own expense...[the contractor] had redesigned and
       reinstalled the new flooded suction design on all 40 pumping systems.

The June 4, 2007, MFR and May 11, 2007, ITR also addressed this issue and
made recommendations that have since been implemented.

This air intake problem first occurred during factory testing and surfaced again in
June-July 2006 after the water pump systems were installed at sites. The
contractor provided a temporary solution by first installing a safety valve on the
hydraulic intake pipe to bleed the trapped air. The problem was resolved
permanently when suction pipes were submerged in oil and moved to a “gravity
feed” position in the hydraulic tank. On July 12, 2006, a no cost contract
modification was issued that required the contractor to modify all existing
hydraulic tanks to a flooded intake for the hydraulic pumps. After the
implementation of the modification, each of the hydraulic pumps was tested prior
to acceptance.

Analysis: The allegation was not substantiated. The hydraulic pump design was
a standard design that required a prescribed start-up procedure. The air intake
problem arose when the operator did not follow the prescribed hydraulic power
unit start-up procedure subsequent to suction pipe flange repairs. The possibility
of damage from improper start-up was eliminated by implementing a no cost
modification that required that the suction pipes be moved to a “gravity feed”
position in the hydraulic tanks that submerged intake pipes in the hydraulic oil
tank thus preventing the air from entering into the pump. We concluded that this
was a reasonable approach to eliminate the risk of damage and was accomplished
at no additional contract cost to the Government.

Allegation #2: The complainant alleged:

       While trying to meet the contractually required testing requirements the
       pumping equipment experienced voluminous severe hydraulic system
       component failures, and ultimately, catastrophic pump assembly failures.

The complainant went on to state that failure occurred because the HPU
components, including cams, hoses and piping were not designed to operate at
3000 pound/square-inch (psi) hydraulic pressure as required.




                                          6
Facts: The contract explicitly states:

       All reinforced supply hose … shall have a minimum safe working pressure
       of 3,000 psi.

During April 2006, HPUs and the water pumps were tested together at
the contractor facility. The tests were observed by the USACE
representatives from the Jacksonville District quality assurance team
including the complainant. A number of test failures were attributed to
improper functioning of Denison hydraulic pump units. The problems
identified with the hydraulic pump components were: inappropriate cam
and hydraulic hose sizes, seals, o-ring failures, and excessively hot
hydraulic oil. These discrepancies were reported by the complainant and
were acknowledged and addressed in the ITR as follows:

       b. 12 April first initial wet test and within 95 minutes there is a failure of
       pumping components.

       c. 13 April determined cam rings in hydraulic oil pump were wrong size
       causing failures. Originally the hydraulic oil pumps had cams of type no. 66
       & 42;...[the contractor] replaced the 42 with a 50 to increase oil flow to the
       Rineer motor [water pump motors]. Corps personnel discovered that the 50
       cam could not handle a continuous running pressure above 3000 psi. The
       cams were then at Denison’s request to replace all hydraulic oil pumps with
       type 72 & 45, which Denison later indicated will run satisfactorily at a
       continuous running pressure of 3200 psi...

The ITR discussed the cam size issue further and stated:

       Also, sometime in July 2006, it was also found that...[the contractor] had
       installed cams that would not operate at pressures >3000 psi, the current
       system pressure being developed ranges from 3000 to 3200 psi. They had to
       replace the cams in the hydraulic system that would work for pressures
       >3000 psi. The current hydraulic systems now have the proper cams in
       place according to the manufacturer...

The ITR also addressed the flexible hose problem; it stated that the
hydraulic oil high pressure hoses failed and the flexible hydraulic hoses
that were below the water line were replaced with rigid piping. This
corrected corrosion issues with the galvanized quick connects under water.

USACE representatives told us that some of the 4-inch diameter intake
hoses attached to hydraulic pumps were rated for water use but were not
rated for hydraulic oil. The contractor replaced the water hoses when
the problem was brought to their attention. Some of the hyper extended
o-rings/seals and improperly installed seals on the water pump motors
were also replaced at installation sites. All Denison pumps were 100



                                          7
      percent inspected at the sites for defective parts. All inappropriately
      sized cams were replaced at the factory as well as at installation sites.
      No underrated components were allowed to remain on the HPUs.

      Analysis: The allegation was substantiated. HPUs initially failed factory tests
      due to pump component failures. The cams, hoses, o-rings and seals failed
      because they were under rated and did not meet the 3000 psi requirement, were
      of inappropriate size, were incorrectly installed, or had manufacturing defects.
      We concluded that reasonable corrective actions were taken when problems
      were detected during factory tests, during 100 percent field inspection of the
      HPUs, and during acceptance tests conducted in the field. Corrective actions for
      the above items were accomplished at no additional cost to the Government.

Testing Allegations

      Allegation #3: Factory testing for the hydraulic pump, and water pump was
      incomplete and defective equipment was shipped to the sites.

      Facts: The original contract called for a performance test that measured pumping
      capacity. USACE representatives stated that they had problems performing these
      tests and obtained the services of an outside consultant to investigate these issues.
      The consultant reported that it was not a normal practice to test the capacity of
      every pump in the same production run. Variation in performance between
      identical pumps is expected to be slight based on manufacturing tolerances.
      Based on that assessment, USACE decided to replace the performance test with a
      5-hour endurance test, which focused on the HPU. Each HPU was connected to a
      water pump for the test. Accordingly, the contract modification backup
      documentation stated:

             The prior testing required a 1 hour run test per pump and drive unit which
             was being conducted simultaneously, as well as two full size, seven point
             tests on two pumps, the new procedures requires 5 hours per drive unit as
             well as a 24 hour run test on one drive unit and pump combination.

      The 5-hour test was later reduced to 3-hours based on the recommendations from
      USACE engineers and the consultant who stated that there would be no benefit to
      conducting the test for longer than 3 hours.

      The contract modification deleted the requirement for testing each hydraulic
      pumping system. However, because there were numerous problems with the
      HPU during the factory test, the USACE decided to test every HPU, but test only
      a sample of water pumps. Ultimately, 9 water pumps were not tested.




                                               8
The contractor’s quality control forms documented that each of the HPUs
completed the 3-hour factory test before being shipped. However, our review of
the complainants’ documentation and the Jacksonville shop inspection reports
revealed that the Government identified one unit as not accepted. The
Jacksonville shop inspection states:

       This DU was previously tested on 4/29/06 at 1955 Hrs. The unit shut down
       during the test for no apparent reason. CAT personnel troubleshot the unit
       and found a burned fuse and replaced it. When the engine was turned on it
       went through the automatic throttle, but could not hold the 1800 RPM.
       Also, the auto accumulator solenoid valve was not holding the pressure due
       to a possible internal leak. The pumps have to be engaged manually.
       Therefore, this engine is not acceptable.

Despite the failed test, the HPU was shipped to the installation site. When the
USACE found out that the pump was shipped without the Government’s approval
of the testing, the project manager reviewed the issues found during factory tests
and decided to correct the problems with the unit at the installation site rather than
sending it back to the factory. After repairs were made, that pump completed the
acceptance test in the field and accumulated a total of 25 hours as of March 2008.

Analysis: The allegation was partially substantiated. The Jacksonville shop
inspection reports show that one HPU did not pass the 3-hour factory test. We
believe that the project manager’s decision not to return the unit back to the
factory and to correct all the problems with this pump at the site was reasonable,
under the circumstances, because repairs could be accomplished in the field
without incurring the delay and expense of returning the unit to the factory.
Ultimately, this HPU passed the acceptance test at the site and logged more than
25 running hours. Testing of other units was accomplished as specified by the
contract modification.

Allegation #4: The complainant alleged:

       New Orleans TFG pump team personnel were fully aware of the
       voluminous pumping equipment failures at the contractor testing facility,
       and were also fully aware that the more the pumping equipment was run the
       more it experienced catastrophic failures of the pump assemblies and the
       hydraulic systems components.

Facts: Although the factory and installation testing of the hydraulic pumping
systems revealed numerous problems, the USACE and the contractor took
corrective actions by performing inspections and fixing the problems as they
found them. Confidence in the reliability of the hydraulic pumping systems has
grown with the number of hours that have been accumulated from the 3-hour
factory tests, the on site operational tests, the 2-hour on site acceptance tests, and
subsequent maintenance runs.




                                         9
As of the end of March 2008, the HPUs have run from 13 to 50 hours, with an
average of 24 hours, and the water pumps have run from 7 to 77 hours, with an
average of 18 hours. Beside the vigorous 3-hour factory tests, 2-hours acceptance
test, and accumulated total running hours, the USACE also ran continuous 12-
hour tests on two hydraulic pumping units at 1000 psi at the factory and a
continuous 36-hour test on one HPU at 3000 psi at the site. See charts below.

                               H yd rau lic P o w er U n it T o tal H o u rs R u n

               60.00


               50.00


               40.00
 Total Hours




                                                                                      Total Run Hours
               30.00
                                                                                      M ean

               20.00


               10.00


                0.00
                  88 1
                  88 0
                  88 5
                  89 6
                  88 2
                  88 6
                  88 8
                  88 9
                  88 4
                  88 9
                  88 8
                  88 5
                  88 0
                  88 6
                  88 2
                  88 3
                  89 3
                  88 1
                  88 3
                  88 2
                  88 7
                  88 7
                  88 1
                  88 2
                  89 1
                  88 9
                  88 5
                  89 4
                  88 0
                  88 3
                  88 5
                  88 7
                  88 4
                  89 9
                  88 8
                  88 0
                  88 1
                  88 8
                  88 0
                     42
                     6
                     7
                     7
                     5
                     3
                     6
                     5
                     5
                     6
                     6
                     4
                     6
                     5
                     4
                     6
                     7
                     4
                     5
                     6
                     7
                     6
                     4
                     7
                     5
                     5
                     4
                     4
                     4
                     5
                     5
                     5
                     5
                     5
                     4
                     4
                     6
                     4
                     6
                     4
                  88




                                           HP U Num be r



                                    W ater P u m p T o tal H o u rs R u n

               90 .00

               80 .00

               70 .00

               60 .00
 Total Hours




               50 .00                                                                T ota l Ru n Ho urs
               40 .00                                                                Me an

               30 .00

               20 .00

               10 .00

                0 .00
                  45 5
                  46 5
                  45 1
                  45 8
                  45 7
                  4 5 98
                  45 6
                  46 0
                  45 0
                  45 7
                  4 5 92
                  45 3
                  46 2
                  46 9
                  45 6
                  45 4
                  4 5 90
                  45 1
                  46 3
                  46 7
                  45 2
                  46 7
                  4 5 03
                  45 9
                  45 5
                  46 9
                  45 8
                  46 4
                  4 6 04
                  46 7
                  46 7
                  46 5
                  46 8
                  4 6 74
                  45 6
                  45 8
                  45 9
                  45 6
                  45 6
                      91
                      0
                      9
                      0
                      7
                      8

                      9
                      8
                      0
                      9

                      8
                      8
                      0
                      7
                      9

                      8
                      9
                      6
                      0
                      7

                      8
                      8
                      7
                      6
                      8

                      0
                      7
                      7
                      0

                      0
                      8
                      9
                      7
                      8
                  46




                                     W a te r P um p Num be r




The hydraulic pumping systems are now operational and managed by the New
Orleans District Operation Division. The systems exercised periodically to ensure
their readiness. Logs are kept with problems each pump encounters. Confidence
in the reliability of the hydraulic pumping systems is also supported by the low
number of problems encountered by the New Orleans District Operation Division
as documented in their maintenance log files. We reviewed these files and only
found routine maintenance items.




                                       10
Analysis: The allegation was not substantiated. Although the factory testing of
the HPU revealed several problems with specific components of the hydraulic
pumping system, the USACE and the contractor took appropriated actions to
correct known performance problems. Additionally, the average total running
hours of each hydraulic pumping system up to March, 2008, gives us additional
confidence that the system will reliably operate when needed.

Allegation #5: The complainant alleged:

       Appropriate and sufficient field testing requires delineating specific and
       befitting operating parameters with suitable engineering testing formulation,
       field engineering oversight, and record keeping - to date, to my knowledge,
       this has not occurred. Simply turning one, a couple, or a few pumps on for
       15 to 45 minutes, under unknown conditions, with minimal oversight, and
       with no record keeping of the conditions, parameters, or oversight is not
       sufficient. The pumping equipment failures I witnessed most often became
       evident after hours of run time under normal operational speeds and
       pressures. At a minimum, real event operating conditions (as in a hurricane,
       i.e., full operating speeds and pressures) and run times (12 to 24 hours or
       more) should be applied for any field testing to ensure the pumping
       equipment operates as intended, and design defects have been mitigated
       properly.

Facts: The USACE prepared a test plan for the final acceptance of the hydraulic
pumping systems in the field. The plan included the requirement to run for a
minimum of 2 hours continuously with engine speeds of 1800 rpm and hydraulic
pressure of 3,200 psi. The testing monitor was to verify a steady state condition
with engine rpm, hydraulic system pressure, hydraulic oil temperature, engine
jacket water temperature, canal level, ambient conditions, and no leaks from
hydraulic and fuel systems.

The final acceptance tests for each hydraulic pumping system were conducted in
the field by the contractor with oversight by USACE. USACE documented the
tests with quality assurance reports (QARs) which recorded the testing parameters
including pump speeds, run times, temperature, and deviations from test
procedures. The 40 systems were accepted by the Government. The QARs
documented that 4 of the hydraulic pumping systems were accepted with only 1.5
hours of testing and 6 systems were accepted with reduced speeds for the last half
hour of the 2-hour tests, 1400 rpms instead of the required 1800. The reduced run
times and speeds for the acceptance tests were caused by the canals running out of
water, rather than an actual or anticipated equipment failure. USACE personnel
stated that they accepted the systems with reduced hours and speeds because
performance was demonstrated in the first 45 minutes by reaching steady state
conditions.

In addition to the acceptance test for the hydraulic pumping systems, the USACE
also performed a 36-hour test to prove that the HPU would function for that
period of time. This test was performed with a HPU connected to a rented water
pump in the canal.
                                         11
       Analysis: The allegation was partially substantiated, in that test runs were shorter
       than the 12 to 24 hours recommended by the complainant. However, the USACE
       did develop a test plan and recorded in QARs the extent to which each pumping
       system met the test requirements. Due to the limitation of the water level in the
       canal, the test procedures performed by the USACE and contractor were adjusted,
       but sufficient to demonstrate that the hydraulic pumping systems will function as
       designed. The 36-hour test on the HPU and the additional run hours on the
       hydraulic pumping systems provide additional evidence that these hydraulic
       pumping systems will meet endurance requirements.

Installation Allegation

       Allegation #6: Defective and untested pumping equipment was installed.

       Facts: As discussed above, 9 water pumps were not factory tested prior to
       installation and one HPU was received at the site without Government approval of
       the 3 hour factory testing. Problems identified at the factory testing included
       undersized gear oil circulation motors, hydraulic motor vibrations, suspect pipe
       welds, and lower than expected pumping capacity. Under the contract, final
       acceptance of the hydraulic pumping systems was not at the factory. It occurred
       in the field after, final acceptance testing.

       Additional hydraulic pumping system issues were identified and corrected in the
       field, including hydraulic oil with foreign contamination (metal shavings and a
       jello like substance). We found that the problems were solved and that the
       systems are now fully operational.

       The December 31, 2007 GAO Report addressed the issue as follows:

              Each pumping system has been successfully tested on site … providing
              greater assurance that they perform as designed during future hurricane
              seasons…the Corps stated that all of the outstanding repairs have been
              completed and on-site testing indicates that the Hydraulic pumping systems
              are fully operational. Final acceptance of the pumping systems is expected
              to be completed early in calendar year 2008.

       Analysis: The allegation was partially substantiated. All HPUs were tested at
       the factory before shipping. However, as noted above, one HPU failed factory
       test but was shipped to the site and 9 water pumps were not tested at the factory.
       However, all defects related to these problems were fixed at the installation
       sites. Indeed, the USACE has taken extensive corrective actions to fix the
       problems at the sites from April 2006 until May 2007. All 40 HPUs are in place
       and have been successfully installed and tested. We consider this approach
       reasonable in view of the urgency of achieving an immediate improvement to
       New Orleans’ flood control protection and the unprecedented capacity of these
       individual pumping units.


                                               12
Operational Capability Allegation

      Allegation #7: USACE allowed less than full designed capacity performance as
      called out in the contract.

      Facts: The contract stated that the pump shall be able to operable through the
      entire range and within a tolerance of 0 to plus 5% of capacity in gallons/minute
      (gpm) at a given Total Dynamic Head in feet of water. The required capacity in
      this operable range is specified in the following chart from the contract:

       Design Condition               Max Head          Operating Point           Low Head
       Design Point                                                              Design Point
       Flow                          85,000 gpm            98,000 gpm            105,000 gpm
       Total Dynamic Head             16.8 FT.              12.1 FT.               8.5 FT.
       (TDH)
       %efficiency                       80%                   81%                   80%
       Max. Speed                      400 RPM               400 RPM               400 RPM
       Max. Horse Power                  720                   690                   640
       (HP)

      The Request for Proposal (RFP) required and the contractor provided a certified
      pump curve based on model studies identifying that the pumps proposed met
      contract requirements. The original contract required a full scale capacity test on
      each pump. Following the initial full size factory tests, USACE’s pump testing
      consultant traveled to the contractor’s facility to assess testing issues and
      production delays. The consultant’s report stated:

             I recommended dropping the pump performance tests and adding an
             endurance test for three main reasons. First, there was expected to be only
             slight variations in pump performance considering they were all
             manufactured to be identical. Secondly, I had a low confidence level in the
             validity of the current performance tests and third we needed endurance
             testing to weed out mechanical problems before the pumps are shipped to
             New Orleans.

      The USACE initiated a contract modification to implement these
      recommendations and replace the full scale capacity test with a model test.

      In order to validate the contractor’s original model test results, a full scale factory
      test was performed by the contractor in conjunction with ERDC in December
      2006. The test results indicated that at the specified operating total dynamic head
      conditions, the measured discharge capacity was less than required as shown in
      the following chart:




                                              13
       TDH               Required Capacity         Actual Capacity          % Reduction
       16.8 ft           85,000 gpm                82,960 gpm               6.5%
       12.1 ft           98,000 gpm                93,982 gpm               4.1%
       8.5 ft            105,000 gpm               98,280 gpm               2.4%

      USACE stated that the accuracy of the instrumentation for this test was +/- 5%.

      Because the original model test was not witnessed by the Government, the
      USACE and the contractor agreed to perform an additional model test to ensure
      the accuracy of the measured capacity of the pumping systems. The model test
      was conducted by the contractor in cooperation with USACE's ERDC in
      September 2007. The model test revealed that the hydraulic pumping systems'
      capacity was 1.4 percent less than required by the contract. The USACE stated
      that the deficit did not have significant impact because the 1.4 percent was within
      the testing equipment margin of error and the interim system comprised of both
      the hydraulic and direct drive pumping systems still exceeded the 10-year event
      system design criteria.

      Model testing was considered more accurate for pumping capacity. The use of a
      model test is standard practice for a pump of this size according to both the
      USACE Engineering Manual 1110-2-3105 and the HI Standard, ANSI/HI 2.6-
      2000.

      Analysis: The allegation was substantiated. The model testing did show that the
      hydraulic pumping systems’ capacity was 1.4 percent less than required by the
      contract. However, the USACE stated that the deficit did not have significant
      impact because the 1.4 percent was within the testing equipment margin of error
      and the interim system comprised of both the hydraulic and direct drive pumping
      systems still exceeded the 10-year event system design criteria. Because the total
      system is capable of meeting the 10-year event design criteria, we find no basis to
      recommend equipment redesign or upgrade.

Contract Issues Allegations

      Allegation #8: The complainant alleged:

                 The Task Force Guardian ACE [USACE] team violated Federal
                 procurement regulations with numerous and consequential unauthorized
                 commitments, acted with implied authority without the knowledge or
                 consent of the Contracting Officer, failed to take corrective action when
                 knowledge of contracting improprieties were made evident, and refused to
                 implement contract administration actions ordered by Contracting Officer to
                 mitigate pumping design deficiencies

      Facts: The USACE contracting officer stated that she was in constant contact
      with the USACE team. We reviewed numerous emails, memorandums, records

                                                  14
of daily phone calls, and documentation of meetings with the USACE project
manager that confirmed continual contact throughout the entire process of the
testing and delivery of the hydraulic pump system to the three sites. We found
evidence that the USACE team addressed each of the problems identified in those
records, both at the factory and on site. As a result, of the continuous
involvement of the contracting officer, 33 modifications were made to the
contract from February 15, 2006 to November 13, 2007. For example the
modifications involving funds included specification changes to hydraulic piping
and hose. Additionally, revisions of testing procedures were made at no cost to
the Government.

The December 31, 2007 GAO report stated:

       We found much of the documentation that the ITR specifically cited as
       missing - including request for proposals, independent government
       estimates, certified cost or pricing data, technical analyses, and price
       negotiation memorandums - was not required, because documentation was
       not relevant to the contract modifications in question…our review found
       that, for the most of the contract modifications, there was evidence of some
       analysis by the Corps and extensive back and forth discussion, usually by e-
       mail, between officials form the Corps and ... [the contractor].


Analysis: We found insufficient evidence to support the allegation.
Documentation confirmed continual interaction between the contracting officer
and other members of the USACE team throughout the acquisition process. The
contracting officer stated that she was in daily contact with the project manager
throughout the duration of the project. The Jacksonville quality control team
provided technical support for the USACE team by providing oversight of the
factory testing.

Allegation #9: USACE team personnel did not engage in usual and customary
Corps of Engineers contract administration practices or conduct project oversight
and documentation that would ensure even minimum requirements could be met
to protect the Government’s interests.

Facts: The contract stated:

       The field test shall be witnessed by the Government . . . Start-up tests and
       demonstration shall be performed by the pump manufacturer’s
       representative and the Contractor, and witnessed by the Government...


The contract also required full size factory testing witnessed by the Government
prior to shipment of the pumps. However, we found that the process for
Government sign-off on the factory testing and designation of who had the
authority to approve that the equipment was ready for shipment was not
formalized.


                                         15
The contract administration and documentation issue was extensively addressed
by the MFR, ITR and the GAO reports. These reports found numerous
deficiencies in contract documentation.

The June 4, 2007, MFR has addressed documentation, contract administration and
oversight issues partially. It stated:

       My expectation is that the team should document their ongoing contract
       procurement actions even while working under crisis conditions. I will
       form a team to help them bring the documentation file up to date. An
       improvement in future operations would be to deploy a contract
       administration team to work along side the project delivery team, with the
       sole focus of performing and assuring correct and complete contract actions
       and documentation.” It further stated: “Meanwhile our team of engineers
       worked with the manufacturer in the factory to adjust/retrofit/improve the
       pumps in actual field conditions daily to assure that the pumps reached the
       required level of reliability.

The ITR found certain key elements of the solicitation documents missing from
the contract files. The ITR also noted several change orders (contract
modifications) with apparent missing documentation.

The December 31, 2007 GAO report also stated:

       Contract files for the pumping systems, although incomplete at the time of
       the ITR review, now contain the required documentation for the type of
       contract and value of the associated modifications. In a number of cases,
       Corps officials inserted required documentation in the contract files several
       months after modifications were issued and only after the ITR reported its
       findings. The ITR correctly noted the absence of some required
       documentation. However, we found much of the documentation that the
       ITR specifically cited as missing—including requests for proposals,
       independent government estimates, certified cost or pricing data, technical
       analyses, and price negotiation memorandums—was not required, either
       because documentation was not relevant to the contract modifications in
       question . . . Further, the contract itself was not written as precisely as it
       should have been. Specifically, the original factory test requirements were
       ambiguous, there were limited provisions for on-site testing, and there were
       no criteria for acceptance of the pumping systems by the government.

GAO recommended that the USACE:

       Take steps, through additional guidance or otherwise, to reinforce the
       importance of adherence to sound acquisition practices even during
       expedited procurements, including ensuring that important contract
       provisions, such as any required testing, are clear and that the contractor
       and the government understand what conditions or criteria must be met for
       successful completion of the contract.




                                          16
DoD (and the Army) concurred with the recommendation and stated that USACE
will review and revise, as necessary, current policies and regulations to ensure
that a reasonable period of time is identified for completing and filing contract
documents.

We found evidence of Government’s project oversight during factory and on-site
testing of the pumping systems. The complainant herself was a member of the
factory test oversight and site installation teams. Although a supply contract did
not require appointment of a contracting officer’s representative (COR), USACE
appointed the on-site resident engineer as the COR for the pump contract. The
USACE stated that a COR was not appointed at the factory, as there was a
shortage of qualified personnel.

Analysis: The allegation concerning inadequate documentation was
substantiated. Several audits and examinations found significant deficiencies in
contract documentation. We consider it appropriate that the Army has taken
actions to emphasize the future need for proper documentation, despite project
urgency. We found that USACE provided ample project oversight at the factory
as well as at the installation sites.

Allegation #10: Original bidders for the contract would not have been rejected if
the requirement for factory load testing that was subsequently deleted from the
contract had not been in the Request for Proposal.

Facts: The December 31, 2007 GAO Report addressed the issue as follows:

       The testing specifications used for the RFP were nearly identical to those
       published by ... [the winning contractor], which included an open sump test
       requirement. After the other manufacturers complained that the open sump
       test requirement was restrictive because only … [the winning contractor]
       had an open sump, the Corps amended the RFP to delete this requirement.
       This open sump test requirement was incorporated into the contract at the
       time of award, however, because it was offered by … [the winning
       contractor] as part of its proposal.

USACE representatives stated that the open sump test requirement was deleted
from the RFP and was not a factor in the source selection. It, therefore, had no
effect on the original bidders’ ability to compete. According to the contracting
officer, who was also the Source Selection Official, neither the full scale open
sump test nor the contractor facilities was a factor in the final selection of the
pump manufacturer. During the source selection, each contractor was judged
only on its technical approach, project management expertise, past performance, and
small disadvantaged business initiatives. The winning contractor was rated
significantly higher on the selection criteria.

The winning contractor’s proposal included the conduct of full scale performance
testing at the factory and therefore, it was left in the contract.


                                        17
Analysis: The allegation was not substantiated. Indeed, the requirement for open
sump testing that some bidders found objectionable was deleted from the RFP in
order to enhance competition. Moreover, the Source Selection Official stated that
test facilities were not a factor in judging the bidders.

Allegation #11: The complainant alleged:

       The Task Force Guardian ACE [USACE] team refused to hold the
       contractor responsible for providing accurate and truthful quality control
       documentation for pumping equipment, and refused to hold contractor
       responsible for engaging in misleading and deceptive actions to conceal
       actual number and nature of failures.

Facts: The contract required the contractor to provide test documentation as
follows:

       The Contractor shall provide and maintain an inspection system acceptable
       to the Government covering the supplies, fabricating methods, and special
       tooling under this contract. Complete records of all inspection work
       performed by the Contractor shall be maintained and made available to the
       Government during contract performance and for as long afterwards as the
       contract requires.

Documentation from the complainant and from the Jacksonville shop inspection
reports show problems and corrections at the factory that were not all recorded in
the contractor’s factory quality control reports. However, the USACE was
informed of the problems and corrections were made to address pumping system
problems.

Analysis: The allegation was partially substantiated. The contractor’s
documentation did not include every problem and correction. However, the
Jacksonville QC team also provided documentation and USACE took corrective
actions when they became aware of the problems. We found insufficient
evidence to conclude that the contractor engaged in deception to conceal
equipment failures. We agree with the December 31, 2007, GAO report
recommendation:

       Develop procedures to ensure that any contract related documentation,
       including that related to contract pricing, is completed and filed within a
       reasonable period of time.

Allegation #12: The USACE team personnel refused to hold the contractor
responsible for hydraulic oil with foreign object contamination (metal shavings,
etc.), and hydraulic pipe flushing procedures that caused hydraulic oil to solidify
within the hydraulic system.




                                        18
In the complainant’s October 13, 2006 Declaration the complainant alleged:

       We have had issues of the hydraulic oil in the hydraulic system of the
       pumps in the field turning to a Jell-O (like Jell-O shots) consistency and
       requiring every part of every pumping equipment component to be flushed
       and refilled...during an inspection of the hydraulic reservoir there was
       discovered a large amount of hydraulic oil in the bottom that had turned to a
       Jell-O like consistency (4” thick slab about 1.5’ x 4’). In addition, during
       the inspection of the Denison hydraulic pumps there was observed large
       number of pumps that had a jelly like substance through out their internal
       workings. It was later discovered by our testing lab that the Jell-O like
       substance was caused by a reaction of calcium and water within the
       hydraulic oil. The calcium was introduced by the pickling compound used
       in the hydraulic piping provided by [...the contractor] and the water was
       present by virtue of the hydraulic system not being 100% contained [...the
       contractor’s] own flushing procedure caused the pickling compound to be
       introduced to the hydraulic oil, and the subsequent introduction of water
       caused the reaction to occur. [...The contractor] stated during a meeting on
       this subject that they did not feel it necessary to rectify this problem and
       would not take measures to correct it. When I asked [...the contractor] if the
       jell-O like hydraulic oil met the specifications of the hydraulic oil required
       by the Denison hydraulic pump and Rineer motors, they did not answer.
       My understanding was the government was to bear the cost of
       flushing/cleaning/refilling all the hydraulic pumping systems because [...the
       contractor] refused to do so (a day before I left New Orleans three contracts
       were being awarded to outside contractors to perform the needed
       flushing/cleaning/refilling). This cost, and all associated costs, should be
       born by [...the contractor].

Facts: The contract incorporated several FAR clauses by reference and stated:

       All supplies furnished under this contract will be free from defects in
       material or workmanship and will conform to all requirements of this
       contract.

The contract stated that the contracting officer may require, by written notice,
the prompt correction or replacement of any supplies. Even though the contract
does not specifically mention hydraulic oil, the above clause applies to the
hydraulic oil.

Numerous impurities were noticed in the hydraulic system installed at the sites.
The impurities were attributed to slag from welding operations and metal
shavings from sawing and pipe cutting operations entering hydraulic pipes during
the building of pipe racks by the on-site contractors.

Additionally, a jelly like substance in the hydraulic fluid reservoirs, on the tank
filters, and hydraulic pumps located at Orleans and London Avenue canals was
observed. Testing of the filter indicated a high level of Calcium, Boron, and
Silicon, which was believed to be the result of the oils used in the pickling
process. Additionally, the suction strainers and hydraulic fluid reservoirs
contained large amounts of metal particles. USACE personnel informed us that

                                          19
the hydraulic pump units were shipped to the New Orleans sites with hydraulic oil
in the reservoirs. During installation of HPUs additional hydraulic fluid from a
local supplier was added. When the two hydraulic fluids mixed, a jello like
substance formed. An analysis of the hydraulic fluids revealed that the two
hydraulic fluids had different consistencies. The contractor replaced the hydraulic
fluid but insisted that the hydraulic system was clean and did not require further
flushing and cleaning. The contract did not specify a specific procedure for
flushing and cleaning the hydraulic pipes. Therefore, the USACE decided that
long-term reliability would be best served by requiring a cleaning process that
was not specified in the contract. In July 2006 two contract modifications were
issued to implement new cleaning and flushing of hydraulic piping at the three
installation sites.

Analysis: The allegation was not substantiated. The USACE enforced contract
provisions. The contractor replaced the contaminated hydraulic fluid that had
turned into jell-O like substance but insisted that the hydraulic system was clean
and did not require further flushing and cleaning. The USACE realized that the
contract did not specify a specific procedure for flushing the hydraulic pipes.
Therefore, USACE determined that for long term reliability the system required a
more thorough cleaning to prevent metal particles and other impurities from
getting into the hydraulic pump units. The additional cleaning was accomplished
through contract modifications at Government expense.

Allegation #13: The hydraulic piping supplied by the contractor is not in
accordance with accepted industry standards.

Facts: Sub-section 2.4 of the contract stated the hydraulic piping requirements as
follows:

       Hydraulic lines connecting the power unit to the pumping unit shall be a
       combination of black steel pipe and reinforced hose and shall be installed in
       accordance with the drawings and as specified herein. Supply pipe shall be
       ASTM A106, Schedule 80 seamless black steel pipe, and return pipes shall
       be ASTM A106, Schedule 40 seamless black steel pipe...

USACE representatives stated that the contractor supplied the pipes to the
standards specified in the contract. The contract required pipe meeting American
Society for Testing and Materials (ASTM) A106. ASTM A106 is a material
properties specification which is verified by mill certifications. The properties
identified in ASTM A106 are used in the formulas of the American Society of
Mechanical Engineers (ASME) codes B31.1 and B31.3 to determine the pipe size.

However, the ITR stated, “The hydraulic piping does not meet the requirements of
ASME B31.1...” and recommended, “...that a certified hydraulic systems
inspector determine if the system is free of shock loading and certify that the
system as built is safe to operate for the intended use.”


                                         20
In response to the recommendation made in the ITR, USACE hired a professional
engineer who performed an evaluation to determine the suitability of the
hydraulic piping system design and construction. The consultant was advised by
an ASME representative that code B31.3, not code B31.1, was the proper code for
this application. Using the formulas found in ASME code B31.3 and the
properties of ASTM A106 pipe, the consultant determined that the piping was in
accordance with the appropriate industry standard. In addition, he tested the
installed piping system at 1.5 times the design pressure (4500 psi) and observed
no failure in piping and found the system working satisfactorily. The professional
engineer concluded that the hydraulic piping system, design, and construction
were suitable for transmitting power from the diesel engine to the vertical water
pumps. Shock loading in the drive was not an issue. There were no rapid closing
valves in the oil power system. Engineering calculations indicated that the pipe
envelope did not present a safety hazard. In summary, the professional engineer
found the existing hydraulic pipes adequate.

In addition, another consultant analyzed the adequacy of the ASTM A106
Schedule 80 black steel pipe used as hydraulic conduits for the pumps. He stated
in his report:

       Based on the above observations and ...[the contractor representative] e-
       mail dated May 18, 2006, we believe that the 3” diameter Sch. 80 seamless
       black steel pipe is adequate for the hydraulic conduits for the hydraulic
       pumps at the 17th Street Canal Interim Pump Station.

Analysis: The allegation was not substantiated. The hydraulic pipes supplied by
the contractor met the contractual specifications and accepted industry standards.
The ASME advised that the correct standard for this purpose was ASME B31.3.

Allegation #14: The complainant alleged:

       ...they [the contractor] referred to my mandated 100% presence for pump
       testing oversight by USACE QA [Quality Assurance] personnel, including
       full QA and photographic documentation of all ongoing pump equipment
       testing, to be excessive, unnecessary, and somehow detrimental to getting
       pumps delivered to the city of New Orleans.

Facts: The USACE representatives told us that the contract did not specify the
extent of oversight during factory testing. The contract states:

       Full size factory testing shall be witnessed by the Government prior to
       shipment of the pumps.

The contract also includes by reference FAR 52.246-2 which states:

       The Government has the right to inspect and test all supplies called for by
       the contract, to the extent practicable, at all places and times, including the
       period of manufacture, and in any event before acceptance. The
       Government shall perform inspections and tests in a manner that will not


                                          21
       unduly delay the work. The Government assumes no contractual obligation
       to perform any inspection and test for the benefit of the Contractor unless
       specifically set forth elsewhere in this contract.

In response to the contractor’s expressed concerns regarding the complainant’s
oversight activities, USACE assessed the issue and included the following
statement in a contract modification:

       Inspectors are to be notified of the initiation of test with enough time to
       travel between test sites and witness the beginning and ending of all tests,
       even if only one inspector is on duty at that time.

Analysis: We confirmed that the contractor raised objections to the
complainant’s rigorous oversight activities because the original contract intent
was not clear regarding the extent to which Government representatives would be
involved in pump testing. We concluded that USACE management reasonably
attempted to balance the need for Government involvement in testing with the
need to avoid the type of interference which could slow production. The USACE
decision to modify the contract to require the Government representative to
witness the beginning and end of each test was an acceptable approach.

                   Conclusion and Actions Taken or Planned

The New Orleans Temporary Outfall Canal Pumps were procured and installed
under emergency conditions. The project team made many hurried decisions that
sometimes left protocol and documentation lacking. However, our review
revealed a dedicated effort by committed professionals, including the
complainant, to procure, debug, and install a temporary outfall canal pumping
system to help protect the people of New Orleans. According to information we
obtained, this was the largest pumping system ever procured by the USACE,
having a 60-inch water pump diameter. The largest pumps previously procured
by the USACE had a 42-inch diameter.

As indicated in this report, we found several of the allegations were substantiated.
Testing at the factory and on-site disclosed numerous deficiencies that were
corrected by the contractor at no cost to the Government, or through contract
modification when necessary. Furthermore, the effort to produce and install the
pumping systems on an expedited basis resulted in the failure to properly
document the contract files. However, we consider these deficiencies
performance-related shortcomings that did not rise to the level of a serious
violation of law or regulation, abuse of authority, or gross mismanagement. Nor
did they result in a gross waste of funds or a danger to public health or safety.
Accordingly, we found insufficient basis to make a referral to the Attorney
General pursuant to Section 4(d) of the IG Act or to recommend disciplinary
action against any Government employee.




                                         22
           The Army is implementing recommendations that were made by the GAO to
           improve the management of future expedited projects as set forth below. We
           make no additional recommendations.

                         GAO REPORT 08-288, 'ARMY CORPS OF ENGINEERS:
                        KNOWN PERFORMANCE ISSUES WITH NEW ORLEANS
                        DRAINAGE CANAL PUMPS HAVE BEEN ADDRESSED, BUT
                        GUIDANCE ON FUTURE CONTRACTS IS NEEDED,' DATED
                               DECEMBER 31, 2007, (GAO CODE 360879)

                              DEPARTMENT OF DEFENSE RESPONSE TO THE
                                       RECOMMENDATIONS

                   Recommendation 1: We recommend that the Secretary of Defense require
                   the Chief of Engineers to:

                   Take steps, through additional guidance or otherwise, to reinforce the
                   importance of adherence to sound acquisition practices even during
                   expedited procurements, including ensuring that important contract
                   provisions, such as any required testing, are clear and that the contractor
                   and the government understand what conditions or criteria must be met for
                   successful completion of the contract.

                   DOD RESPONSE: CONCUR: The U.S. Army Corps of Engineers will
                   send a memo to all Corps offices reinforcing the importance of adherence to
                   sound engineering practices even during expedited procurements. The
                   memo will relate lessons learned and emphasize the need for technical
                   specifications, such as those required for equipment testing, to be clear so
                   that the contractor and the government understand what conditions or
                   criteria must be met for successful completion of the contract. The
                   anticipated date to transmit the memo is 14 March 2008.[2]

                   Recommendation 2:
                   Develop procedures to ensure that any contract related documentation,
                   including that related to contract pricing, is completed and filed within a
                   reasonable period of time.

                   DOD RESPONSE: CONCUR: The U.S. Army Corps of Engineers will
                   review and revise, as necessary, current policies and regulations to ensure
                   that a reasonable period of time is identified for completing and filing
                   contract documents. Estimated completion date is 30 May, 2008.[3]




2
    The memo was distributed to all USACE districts and divisions on February 25, 2008
3
    The USACE completed revisions of policies and regulations on February 27, 2008

                                                     23
